No. 19-414

Supreme Court of the United States

MEDTRONIC, INC.,
Petitioner,
v.
Marx A. Barry, M_D.,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I certify that I am a member of the Bar of
this Court representing a party on whose behalf service is made, and I served three copies
of the MOTION FoR LEAVE TO FILE AND BRIEF OF THE R STREET INSTITUTE AS
AMICUS CURIAE IN SUPPORT OF THE PETITION in the above-identified case, upon all
parties required to be served. Service was performed by U.S. priority mail to counsel of
record listed on the following page.

Dated: October 28, 2019

 

1212 New York Ave NW Ste 900
Washington DC 20005

(202) 525-5717
eduan@rstreet.org

Counsel for amicus curiae
LIST OF PARTIES SERVED

SETH P. WAXMAN

WILMER CUTLER PICKERING HALE AND Dorr LLP
1875 Pennsylvania Ave, NW

Washington, DC 20006

202-663-6800

Seth. Waxman@wilmerhale,com

Counsel for Petitioner Medtronic, Inc.

ApaM HowaRD CHARNES

KILPATRICK TOWNSEND

2001 Ross Avenue, Suite 4400

Dallas, TX 75201

214-922-7106
acharnes@kilpatricktownsend.com
Counsel for Respondent Mark A. Barry
